   LEGAL SERVICES
     CORPORATION


         Office of
     Inspector General




Semiannual Report to the Congress
 October 1,2007 - March 31,2008
                                                       October 1, 2007 - March 31,2008




 TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES CORPORATION
              AND TO THE UNITED STATES CONGRESS

                A MESSAGE FROM THE INSPECTOR GENERAL


This Semiannual Report is my first as LSC's lnspector General. I wish to express
my appreciation to the Board of Directors for their confidence in appointing me. I
am deeply honored and highly enthusiastic to have this opportunity to serve. I can
think of no better role than one devoted to the dual goals of helping to improve the
economy and efficiency of programs serving the legal needs of the poor and of
protecting taxpayer dollars from fraud and abuse.

This Semiannual Report sets forth the significant activities and accomplishments of
the Office of lnspector General from October 1, 2007 through March 31, 2008.

During this reporting period the OIG initiated a series of high priority reviews of
grantees' internal controls. This work, undertaken at LSC management's request,
will continue into the next reporting period and is intended to help management and
the Board properly address issues identified in a recent Government Accountability
Office report.

As part of our oversight role with respect to the grantee audit process, during the
period the OIG conducted field work for nine audit service reviews (ASRs) and
issued six ASR reports. To better serve Congress and LSC, beginning with this
Semiannual Report we are expanding the range of information provided regarding
grantee audit findings, based on our review of the audits conducted by independent
public accounting firms. During the period we also transmitted the Fiscal Year 2007
LSC Financial Statement Audit to the Board of Directors.

The OIG opened 18 investigations, and closed 19 investigations during the
reporting period. As a result of an OIG investigation, an indictment was obtained
against a former employee of an LSC grantee in connection with a scheme to
defraud the grantee of over $134,000 in improper charges.

The OIG actively participated as a consultative member of an LSC Task Force that
developed a Code of Ethics and Conduct, applicable to all LSC employees, officers,
and directors, which was adopted by the Board of Directors in March 2008.

The OIG also continued to work closely with the Office of Legal Affairs and outside
counsel defending a challenge to LSC's program integrity regulation. A judgment in
favor of LSC was just recently handed down by the U.S. District Court in this
litigation.
                                                 October 1,2007 - March 31,2008



I would like to thank the Board and LSC management for the warm welcome I
received, a n d for the cooperation and support they have already displayed as I
assumed my new duties. I also wish to express my commitment to the Board, to
the Congress, and most importantly to the community of low income individuals
in need of legal services whom LSC and its grantees serve, to fulfill my
responsibilities as lnspector General with all the dedication, ability, and energy
that I possess.

Sincerely,




lnspector General
April 30, 2008
                                         TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL OVERVIEW ...................................................
                                                                                      1

AUDITS ...................................................................................................................3
  Fiscal Year 2007 Corporate Audit .........................................................................3
 Work In Progress...................................................................................................      4
  Referral From Management ................................................................................              -4
  Deferred Work ......................................................................................................    4
  Independent Audits of Grantees...........................................................................               4
  Review of Grantees' Annual Audit Reports; IPA Audit Findings ...........................5
  Follow-up Process................................................................................................       5
  Audit Service Reviews..........................................................................................         6

I N V E S T I G A T I O N S ............................................................................................8
   Former Employee of LSC Grantee Indicted for Fraud ...........................................8
   Personal and Private Information Survey ..............................................................                    8
   Fraud Vulnerability Reviews ..................................................................................8
   Hotline ..................................................................................................................-9

L E G A L R E V I E W S ........................................................................................... 10
   Review of Legislation. Regulations and Policy ....................................................               10
   Litigation Activities ...............................................................................................
                                                                                                                    10
   Preventing Fraud and Abuse ...............................................................................       11
  Other Activities ....................................................................................................
                                                                                                                   11

OTHER OIG ACTIVITIES ..................................................................................
                                                                                                    12

AUDIT REPORTS ISSUED for the Period Ending March 31. 2008.........................13

AUDIT SERVICE REVIEWS ISSUED for the Period Ending March 31. 2008 .........14

TABLE I .Audit Reports Issued with Questioned Costs for the Period Ending
             .
March 31 2008 .......................................................................................................15

TABLE II .Audit Reports Issued with Funds to Be Put to Better Use
for the Period Ending March 31. 2008 ..................................................................... 16

TABLE Ill .Index to Reporting Requirements of the
Inspector General Act ..............................................................................................17
The LSC Office of lnspector General operates under the lnspector General Act of
1978, 5 U.S.C. App. 3. In 1988, Congress amended the IG Act and required LSC
and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of lnspector General.

The OIG has two principal missions: (1) to assist management in identifying ways to
promote economy and efficiency in the activities and operations of LSC and its
grantees; and (2) to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering effective operations, in identifying and overcoming
obstacles to good program management, and in preventing future problems. The
OIG must also identify and report on current problems.

The OIG1sprimary tool for achieving these missions is objective and independent
fact-finding, performed through financial, performance and other types of audits,
evaluations and reviews, as well as through investigations into allegations of
wrongdoing. Its fact-finding activities enable the OIG to develop recommendations
to LSC, Congress and grantee management for actions or changes that will correct
problems, better safeguard the integrity of funds, improve procedures, or otherwise
increase the economy, efficiency and effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its grantees
that are conducted by independent public accountants, and with reviewing proposed
and existing regulations and legislation affecting the operations and activities of
LSC and the programs it funds.

In addition, since 1996 LSC's annual appropriation has directed that grantee
compliance with legal requirements be monitored through the annual grantee audits
conducted by independent public accountants, under guidance developed by the
OIG. Congress has also specified that the OIG has authority to conduct its own
reviews of grantees.

The OIG is headed by the lnspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants and experts.

To ensure the objectivity of the IG, the IG Act grants the LSC IG the independence
to determine what reviews are performed; to gain access to all documents needed
for OIG reviews; to publish findings and recommendations based on OIG reviews;
and to report OIG findings and recommendations to the LSC Board of Directors and
to Congress. The IG Act also prohibits LSC from assigning to its IG any of LSC's
own "program operating responsibilities." This means that the OIG does not perform
functions assigned to LSC by the Legal Services Corporation Act, 42 U.S.C.
$2996-29961, other than those transferred to the OIG under the IG Act, and those
otherwise assigned by Congress, for example in the FY 1996 Appropriations Act.

The IG must report serious problems to the LSC Board of Directors and must also
report to appropriate law enforcement authorities when, through audit, investigation,
or otherwise, the IG has found that there are reasonable grounds to believe that a
crime has occurred. The OIG is not an "arm" of the Congress, as is the Comptroller
General, but is required by law to keep the Congress informed through semiannual
reports and other means. The IG also provides periodic reports to the Board and
management of LSC and occasionally to the Boards of Directors and management
of LSC grantees. Some of these reports will be specific (e.g., an audit of a
particular grantee or an investigation of a theft), while others will be of more general
interest to management.

To be effective, the OIG works cooperatively with the Board and management,
seeks their input prior to choosing topics for OIG review, and keeps them informed
of OIG .activities. Within their different statutory roles, the OIG and LSC
management share a common commitment to improving the federal legal services
program and increasing the availability of legal services to the poor.
In this reporting period, the OIG transmitted the Corporation's Fiscal Year 2007
Financial Statement Audit to the Board of Directors. In addition, the OIG initiated
work, pursuant to a referral from LSC management, to review internal control issues
at five of eight grantees identified in a recent Government Accountability Office
(GAO) report. The OIG considered its work at these grantees a high priority
because the work was undertaken to support the Board's and management's desire
to quickly address the issues identified in the GAO report on LSC's grant
management and oversight. As a result of the referral, the OIG deferred work on
three other projects already in progress. The OIG will resume these projects as
resources become available. Also during this reporting period, the OIG initiated
nine Audit Service Reviews (ASRs) and issued letters on six completed ASRs.
Audit staff also assisted on two investigations, which are still ongoing.

In order to improve our semiannual reports and provide more complete information,
we are including below a summary of information on significant findings contained in
independent public accountant (IPA) audit reports required by law of each LSC
grantee, as well as information on actions taken in response to those findings.

Fiscal Year 2007 Corporate Audit

The Fiscal Year (FY) 2007 LSC Financial Statement Audit Report was issued this
reporting period. The Corporation's financial statement audit is conducted by an
independent public accounting firm, under the general oversight of the OIG. The
auditor's report stated that LSC's financial statements present fairly, in all material
respects, the financial position of LSC as of September 30, 2007 (an unqualified
opinion). However, the auditor's Report on Compliance and Internal Control
identified a significant deficiency in internal control over financial reporting that the
auditor considered to be a material weakness. The deficiency related to the lack of
adequate internal control procedures to ensure that non-routine or unusual
transactions were correctly recorded. The reported instance involved a settlement
agreement providing for the recovery of $450,000 from a former grantee. Although
the funds were booked when received in early FY 2008, generally accepted
accounting principles required that the transaction should have been recorded as a
receivable at the time it accrued. An audit adjustment was required to properly
reflect the transaction as of the prior fiscal year and to adjust the Corporation's FY
2007 financial statements. Management concurred with the finding and has taken
action to correct the deficiency.

The audit firm also issued a Management Letter advising the Board of matters it
reported as opportunities for strengthening internal controls and operating
efficiency. Specifically, the audit firm recommended that LSC consider upgrading
software in order to implement a fixed asset module to automate and simplify LSC's
accounting for fixed assets, and that it carefully review its employee compensation
and annually document that it is in compliance with the pay cap provisions of the
LSC Act, as modified by relevant appropriations provisions.

Work In Proqress

Referral From Manaqement

On November 20, 2007, the President of LSC referred to the OIG instances of
internal control weaknesses at eight grantees that were identified in the GAO Draft
~eport'entitled, Legal Services Corporation - Improved Internal Controls Needed
in Grants Management and Oversight. The OIG agreed to review the internal
control issues identified in the GAO report, as well as any other issues that the OIG
may identify in the course of its work, to determine whether adequate corrective
actions had been taken. During this reporting period, the OIG completed visits to
three programs and initiated visits to two others. The remaining three programs will
be reviewed in April and May. The OIG will issue a report to each of the grantees
visited and a summary report to LSC management which will include any policy
issues that need to be resolved.

Deferred Work

Because of the Board of Directors' and management's request, and the urgent need
to address the issues contained in the GAO report, the OIG's review of the eight
grantees identified by the GAO was given a high priority. The OIG therefore
suspended work on three other ongoing projects - an audit of the Office of
Information Management, an audit of Puerto Rico Legal Services, Inc., and a review
of the OIG's internal controls. The OIG will complete these projects as soon as
resources become available.

Independent Audits of Grantees

The LSC Appropriations Act of 1996 required that each person or entity receiving
financial assistance from the Legal Services Corporation be subject to an annual
financial statement and compliance audit, to be conducted by an independent public
accountant (IPA) in accordance with generally accepted government auditing
standards and guidance established by the Office of the Inspector General.
Accordingly, each grantee contracts directly with an IPA to conduct the required
audit in accordance with generally accepted government auditing standards, OMB
Circular A-133, and the OIG Audit Guide for Recipients and Auditors and
Compliance Supplement.

While these audits are not performed by the OIG, the OIG does provide guidance to
the lPAs and oversees the IPA process. The OIG reviews all audit reports prepared

1
    The final report was subsequently issued on December 28,2007.


                                                 4
by the lPAs each year, and performs on-site quality reviews of selected IPAs'
documentation.

The OIG also works with management through an audit follow-up process to ensure
that adequate action is taken to address all significant findings identified in IPA
reports and referred to LSC management. The 1996 Act specifically requires that
LSC follow up on significant findings identified by the lPAs and reported to the
Corporation's management by the OIG.

In order to provide more complete information in our Semiannual Reports to
Congress, with this report the OIG is initiating the practice of including summary
information on significant findings, the amount of questioned costs if any, and the
status of follow-up on significant findings reported by the lPAs as part of the grantee
oversight process. The audit reports and the findings identified in this section and
the related schedules reflect the work of the IPAs, not the OIG.

Review of Grantees' Annual Audit Reports: IPA Audit Findinqs

During the reporting period, the OIG reviewed 24 IPA audits of grantees with fiscal
years ending from January 31, 2007 through September 30, 2007. Of the 24 audit
reports reviewed, 19 contained no findings and five contained a total of 12 findings.
Of the 12 findings, three either had corrective action already implemented or the
OIG determined that the finding was not significant. Five of the remaining nine
findings were referred to LSC's Office of Compliance and Enforcement for follow-up
action. The other four findings were assigned for review within the OIG.

Follow-up Process

Grantee audit reports are submitted to the OIG within 120 days of the close of the
recipient's fiscal year end. The OIG reviews each report and any related findings
and recommendations. Based on this review, the OIG refers appropriate significant
findings to LSC management for follow-up.

LSC management ensures that recipients submit corrective action plans for all
material findings, recommendations, and questioned costs identified by the lPAs
and referred to management.

After appropriate corrective action has been taken by the recipient, LSC
management advises the OIG and requests that the underlying finding be closed.
The OIG reviews management's request and decides independently whether it will
agree to close the finding. If LSC management and the OIG cannot agree on
closing a finding, the matter is entered into a resolution process for final
determination.

The table below presents information on the 24 recipient audit reports received this
period (recipients with fiscal years ending January 31, 2007 through September 30,
2007). A summary of the findings for the 114 recipients with a December 31, 2007
fiscal year end will be presented in the next Semiannual Report.


                          Summary of Findings Reported in
                         Recipient Financial Statement Audits


      Total Number of Findings                                     12

      Questioned Costs                                              0

       Findings Closed By OIG                                       3

       Findings Retained By OIG                                     4

       Findings Referred to LSC Management for
        Follow-up of Correction Action

             Type of Findings Referred:
             Accounting Transaction Deficiency:
             Internal Control System Weakness

      Findings with Corrective Action Accepted by
       LSC Management

      Findings with Corrective Action Accepted by
       OIG and Closed

      * Note: These five findings were not referred to LSC management until late
      in this reporting cycle. LSC management has not yet decided on the
      sufficiency of the corrective action.


Audit Service Reviews

As part of its oversight of the IPA process, the OIG conducts Audit Service Reviews
(ASRs) to review the audit documentation of selected lPAs to ensure that they
adequately tested the grantee's compliance with LSC regulations. During this
period, the OIG issued six ASR reports. We also conducted field work for nine
ASRs.
Audit Reports

      Open at beginning of reporting period

      Issued during Reporting Period

      Closed during Reporting Period

      Open at end of reporting period


Recommendations to LSC Grantees

      Pending at beginning of reporting period

      lssued during reporting period

      Closed during reporting period

      Pending at end of reporting period


Recommendations to LSC Manaaement

      Pending at beginning of reporting period

      Issued during reporting period

      Closed during reporting period

      Pending at end of reporting period
                             INVESTIGATIONS


The OIG opened 18 investigations during the reporting period. These included 11
compliance matters, five criminal investigations, and two fraud vulnerability reviews.
The compliance investigations included allegations of violations of LSC statutes and
regulations involving matters such as class actions, legal assistance to aliens, and
timekeeping. The five criminal investigations included financial fraud and thefts of
property from LSC programs. During the reporting period the OIG also closed 19
investigations. These included 10 compliance matters, five criminal investigations,
two fraud vulnerability reviews, a financial risk assessment project, and one survey.
The OIG also issued one Inspector General subpoena in connection with an
ongoing investigation.

Former Emplovee of LSC Grantee Indicted for Fraud

A grand jury in the Western District of Texas indicted a former employee of an LSC
grantee on federal charges stemming from a scheme to defraud the grantee. The
defendant is charged with having misrepresented to the LSC grantee that he
traveled to assist clients and that he was entitled to reimbursement for mileage and
per diem expenses. An OIG investigation developed evidence that the fraud
amounted to over $134,000. Trial is scheduled for May 2008. The OIG is being
assisted by OIG special agents from the Department of Veterans Affairs and the
Federal Trade Commission.

Personal and Private Information Survey

The OIG completed a survey of LSC offices to identify personal and private
information (PPI) maintained in LSC paper and electronic records, and to determine
whether appropriate steps have been taken to ensure that PPI records are being
properly collected, maintained, used and disclosed. The OIG made several
suggestions for improvement, but overall the survey results showed that information
was handled appropriately. LSC management was advised that at this time OIG
does not plan on conducting additional work as a result of the survey.
Fraud Vulnerabilitv Reviews

During this reporting period OIG completed two fraud vulnerability reviews and
completed its planned work on this project for 2007. Past OIG investigations at
grantee sites have involved monies stolen from petty cash, travel and mileage
expenses, credit card accounts, payrolllsalary advances, and vendor accounts.
Reviews of internal controls for the programs affected by these thefts were found
adequate for the size of the operations, yet a breakdown of these controls facilitated
the opportunities for embezzlements.
This project was initiated to analyze and proactively address grantee financial risk.
Based on financial statement reviews, hotline complaints, and referrals from LSC
and other sources, grantee programs were selected for field visits to conduct fraud
vulnerability reviews. The reviews consisted of a fraud awareness briefing to the
Executive Director and Chief Financial Officer; a focused document review in areas
identified as weak or prone to abuse; and a review of grantee internal control
policies versus practices. No evidence of fraud was uncovered in the two program
reviews completed during this reporting period.

Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or corporate staff. For this reporting period, the OIG received 29 Hotline
contacts. One of these matters was referred to LSC's Office of Compliance and
Enforcement for follow-up, two were opened within the OIG, and the remaining
matters were closed.


INVESTIGATIVE CASES

      Open at beginning of reporting period

      Opened during reporting period

      Closed during reporting period

      Open at end of reporting period


PROSECUTORIAL ACTIVITIES

      Referred for prosecution

      Accepted for prosecution

      Declined for prosecution

      Indictments

      Convictions


INVESTIGATIVE ACTIVITIES

      Inspector General subpoenas issued
                             LEGAL REVIEWS



Review of Leqislation, Requlations and Policy

Pursuant to the IG's statutory responsibilities, the OIG reviews and, where
appropriate, comments on statutory and regulatory provisions affecting LSC or the
OIG, as well as LSC interpretive guidance and internal policies and procedures.

The OIG monitored the progress of LSC's ongoing lesser sanctions rulemaking,
which was undertaken in response to an OIG recommendation. At its April 2008
meeting, LSC's Board of Directors is to consider publication of a Notice of Proposed
Rulemaking. The OIG believes a rule providing LSC with lesser sanctions options
would represent a positive response to the issues raised in our initial
recommendation. We will continue to participate in this process and provide
comments and recommendations as necessary.

During the reporting period, OIG legal staff reviewed a number of legislative
proposals to amend the Inspector General Act of 1978, including S. 2324 and
H.R. 928, and coordinated with counsel for the Legislative Committee of the
President's Council on Integrity and Efficiency in its review and comments on the
bills.

Litiqation Activities

As noted in previous Semiannual Reports, in 2006 the OIG issued an interim report
on the activities of California Rural Legal Assistance (CRLA), finding substantial
evidence that CRLA had violated federal law and regulations governing LSC
grantees. The OIG could not complete its investigation due to CRLA's refusal
andlor failure to respond to an OIG subpoena seeking information relevant to the
investigation.

Accordingly, as previously reported, in March 2007 the U.S. Department of Justice
filed a petition for summary enforcement of the OIG subpoena, on behalf of the
United States and the OIG. The matter has been fully briefed in the U.S. District
Court for the District of Columbia. The parties are presently awaiting a ruling on the
petition.

During this reporting period the OIG legal staff worked closely and cooperatively
with attorneys from the LSC Office of Legal Affairs and outside counsel in
connection with the discovery aspects of a challenge to LSC's pro ram integrity
regulation, 45 CFR Part 1610, brought by an LSC grantee and others.                 9
prevent in^ Fraud and Abuse

OIG experience has shown that during a Presidential election season there is an
increased risk of violations of the Hatch Act restrictions on certain LSC and grantee
political activities. In light of that experience, the OIG issued a memorandum to
LSC management recommending issuance of an advisory to employees of LSC and
the grantee community regarding Hatch Act restrictions on political activity.
Management accepted the OIG's recommendation and issued separate advisories
to LSC employees and LSC grantees.

Other Activities

During this reporting period, the OIG responded to three Freedom of Information Act
requests. The OIG also provided support to the Finance Committee of LSC's
Board of Directors, at its request providing an historical and legal analysis of LSC's
process for selecting an auditor to perform the annual corporate audit.




2
  On April 7, 2008, the District Court for the District of Oregon granted the Legal Services
Corporation's motion for summary judgment. It is unknown at this time whether the plaintiffs intend
to appeal.
                        OTHER OIG ACTIVITIES


The OIG actively participated as an advisory member of a management task force
that drafted a Code of Ethics and Conduct for application both to employees of the
Corporation and to its Board of Directors. This Code of Ethics and Conduct was
recently adopted by the Board.

The OIG has also participated with management in assisting the LSC Board's Ad
Hoc Committee in its efforts to develop appropriate policies responding to GAO
recommendations regarding financial and compliance oversight.

During the reporting period the OIG provided assistance to the AMTRAK OIG in
refining its administrative processes.
                         AUDIT REPORTS ISSUED
                  for the Period Ending March 31,2008


      Title                                            Date Issued

FY 2007 LSC Corporate Audit                            January 7,2008
(Conducted by an independent public accounting firm)
                   AUDIT SERVICE REVIEWS ISSUED
                   for the Period Ending March 31,2008

                                                          Date
      Recipient                       IPA                 Issued
Puerto Rico Legal Services     Padilla, Medina & Assoc.   0 1 123108
Texas RioGrande Legal Aid      Gomez, Fragoso & Assoc.    03/26/08
Legal Aid Bureau               Mitchell & Titus, LLP      03126108
Bay Area Legal Aid (CA)        Harrington Group           03126108
Bay Area Legal Aid (FL)        Reeder & Associates        03127108
Neighborhood LS of LA County   Harrington Group           03131108
                                                TABLE l

                     Audit Reports Issued with Questioned Costs

                             for the Period Ending March 31,2008


                                                        NUMBER
                                                          OF    QUESTIONED   UNSUPPORTED
                                                        REPORTS   COSTS         COSTS

A. For which no management decision has been              0         $0
         made by the commencement of the
         reporting period.

B. Reports issued during the reporting period             0         $0           $0

         Subtotals (A + B)                                0         $0           $0

LESS:

C. For which a management decision was made               0         $0
        during the reporting period:

         (i) dollar value of recommendationsthat          0         $0           $0
              were agreed to by management

        (ii) dollar value of recommendationsthat were     0         $0
              not agreed to by management

D. For which no management decision had been              0         $0           $0
        made by the end of the reporting period

E. Reports for which no management decision had           0         $0
been made within six months of issuance
                                                 TABLE ll

                 Audit Reports Issued with Funds to Be Put to Better Use

                              for the Period Ending March 31,2008



                                                              NUMBER OF   DOLLAR
                                                               REPORTS    VALUE

A. For which no management decision has been made by the         0
        commencement of the reporting period.


6. Reports issued during the reporting period


        Subtotals (A + B)
LESS:

C. For which a management decision was made during the
        reporting period:

        (i) dollar value of recommendationsthat were agreed
             to by management
        (ii) dollar value of recommendationsthat were not
                   agreed to by management

D. For which no management decision had been made by the
        end of the reporting period


  Reports for which no management decision had been made         0
  within six months of issuance
                                                TABLE Ill

                                Index to Reporting Requirements

                                   of the lnspector General Act


   IG ACT
 REFERENCE*                                 REPORTING REQUIREMENT                                   PAGE

  Section 4(a)(2)     Review of legislation and regulations

  Section 5(a)(l)     Significant problems, abuses, and deficiencies                                None

  Section 5(a)(2)     Recommendations with respect to significant problems, abuses, and             None
                      deficiencies

  Section 5(a)(3)     Prior significant recommendations on which corrective action has not been     None
                      completed

  Section 5(a)(4)     Matters referred to prosecutive authorities                                    9

  Section 5(a)(5)     Summary of instances where information was refused                            None

  Section 5(a)(6)     List of audit reports by subject matter, showing dollar value of questioned   None
                      costs (including a separate category for the dollar value of unsupported
                      costs) and funds to be put to better use

  Section 5(a)(7)     Summary of each particularly significant report                               None

 Section 5(a)(8)      Statistical table showing number of audit reports and dollar value of          15
                      questioned costs

 Section 5(a)(9)      Statistical table showing number of reports and dollar value of
                      recommendationsthat funds be put to better use

Section 5(a)(10)      Summary of each audit issued before this reporting period for which no        None
                      management decision was made by the end of the reporting period

Section 5(a)(l1)      Significant revised management decisions                                      None

Section 5(a)(12)     Significant management decisions with which the Inspector General              None
                     disagrees

'Refers to sections in the lnspector General Act of 1978, as amended.
           INSPECTOR GENERAL HOTLINE
          To report suspected fraud, waste or abuse:
                Call:
                    1 800 678 8868 or
                      1 202 295 1670
         Or write:     PO Box 3699
                   Washington DC 20027

       You can request that your identity be protected.

LSC employees are protected from reprisals by the Corporation.
